<html>
<title> - AGRICULTURE'S ROLE IN COMBATING GLOBAL HUNGER</title>
<body><pre>[Senate Hearing 114-268]
[From the U.S. Government Publishing Office]





                                                        S. Hrg. 114-268

                         AGRICULTURE'S ROLE IN
                        COMBATING GLOBAL HUNGER

=======================================================================

                                HEARING

                               before the

                       COMMITTEE ON AGRICULTURE,
                        NUTRITION, AND FORESTRY

                          UNITED STATES SENATE


                    ONE HUNDRED FOURTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            DECEMBER 2, 2015
                               __________

                       Printed for the use of the
           Committee on Agriculture, Nutrition, and Forestry


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




        Available via the World Wide Web: http://www.fdsys.gov/
        
                                  ______

                         U.S. GOVERNMENT PUBLISHING OFFICE 

98-997 PDF                     WASHINGTON : 2016 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001       
        
        
        
        
        
        
        
        
        
        


           COMMITTEE ON AGRICULTURE, NUTRITION, AND FORESTRY



                     PAT ROBERTS, Kansas, Chairman

THAD COCHRAN, Mississippi            DEBBIE STABENOW, Michigan
MITCH McCONNELL, Kentucky            PATRICK J. LEAHY, Vermont
JOHN BOOZMAN, Arkansas               SHERROD BROWN, Ohio
JOHN HOEVEN, North Dakota            AMY KLOBUCHAR, Minnesota
DAVID PERDUE, Georgia                MICHAEL BENNET, Colorado
JONI ERNST, Iowa                     KIRSTEN GILLIBRAND, New York
THOM TILLIS, North Carolina          JOE DONNELLY, Indiana
BEN SASSE, Nebraska                  HEIDI HEITKAMP, North Dakota
CHARLES GRASSLEY, Iowa               ROBERT P. CASEY, Jr., Pennsylvania
JOHN THUNE, South Dakota

               Joel T. Leftwich, Majority Staff Director
                Anne C. Hazlett, Majority Chief Counsel
                    Jessica L. Williams, Chief Clerk
               Joseph A. Shultz, Minority Staff Director

                                  (ii)




















  
                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing(s):

Agriculture's Role in Combating Global Hunger....................     1

                              ----------                              

                      Wednesday, December 2, 2015
                    STATEMENTS PRESENTED BY SENATORS

Roberts, Hon. Pat, U.S. Senator from the State of Kansas, 
  Chairman, Committee on Agriculture, Nutrition, and Forestry....     3
Stabenow, Hon. Debbie, U.S. Senator from the State of Michigan...     1

                                Panel I

Harden, Hon. Krysta, Deputy Secretary, United States Department 
  of Agriculture, Washington, DC.................................     5

                                Panel II

Ellis, Wade, Vice President and General Manager, Bunge Milling, 
  Bunge North America on Behalf of the North America Millers 
  Association, St. Louis, MO.....................................    25
Leach, Richard, President and CEO, World Food Program USA, 
  Washington, DC.................................................    27
Mitchell, Arlene, Executive Director, Global Child Nutrition 
  Foundation (GCNF), Seattle, WA.................................    29
                              ----------                              

                                APPENDIX

Prepared Statements:
    Ellis, Wade..................................................    40
    Harden, Hon. Krysta..........................................    45
    Leach, Richard...............................................    57
    Mitchell, Arlene.............................................    64
Document(s) Submitted for the Record:
Roberts, Hon. Pat:
    Written testimony to the Committee on Agriculture, Nutrition, 
      and Forestry from Marshall Matz............................   104
    World Vision, written testimony to the Committee on 
      Agriculture, Nutrition, and Forestry.......................   109
Ellis, Wade:
    Statement of President Dwight D. Eisenhower to the Fifth 
      International Congress on Nutrition, September 1, 1960.....   112
Mitchell, Arlene:
    Addendum to written testimony of Arlene Mitchell.............   115
Question and Answer:
Harden, Hon. Krysta:
    Written response to questions from Hon. Pat Roberts..........   118
    Written response to questions from Hon. Debbie Stabenow......   120
 
                         AGRICULTURE'S ROLE IN
                        COMBATING GLOBAL HUNGER

                              ----------                              


                      Wednesday, December 2, 2015

                              United States Senate,
         Committee on Agriculture, Nutrition, and Forestry,
                                                     Washington, DC
    The Committee met, pursuant to notice, at 10:04 a.m., in 
room 328A, Russell Senate Office Building, Hon. Pat Roberts, 
Chairman of the Committee, presiding.
    Present: Senators Roberts, Boozman, Perdue, Ernst, Tillis, 
Sasse, Grassley, Thune, Stabenow, Brown, Klobuchar, Gillibrand, 
Donnelly, Heitkamp, and Casey.
    Chairman Roberts. Good morning. I call this meeting of the 
Senate Committee on Agriculture, Nutrition, and Forestry to 
order.
    Prior to making my opening statement, I am going to yield 
to the distinguished Ranking Member, who has another meeting 
she must attend--something about tax extenders, as I recall. 
You do have my list.
    Senator Stabenow. Yes, I have your list.
    [Laughter.]
    Chairman Roberts. So I yield to my distinguished friend and 
colleague.

STATEMENT OF HON. DEBBIE STABENOW, U.S. SENATOR FROM THE STATE 
                          OF MICHIGAN

    Senator Stabenow. Well, thank you very much, Mr. Chairman. 
I hope to be coming back. I am looking forward, maybe, to the 
day of saying, ``Beam me up, Scotty,'' so we can be two places 
at once, because this is a very, very important hearing, and I 
am so pleased to welcome Krysta Harden, our Deputy Secretary of 
Agriculture, who is doing such a phenomenal job. She had been a 
steadfast champion of America's farmers and families, and I 
want to thank you for leading our efforts to implement the 2014 
farm bill. Just extraordinary what you and the Secretary have 
been able to do. We put a lot on your plate, and you have 
worked very, very hard and diligently to move things forward.
    I also want to thank you very much for the excellent job 
that you are doing in highlighting the leadership and 
contributions that women are making in the agricultural 
economy, food economy, not only in our country but throughout 
the world.
    Mr. Chairman, back in August of last year, 2014, Deputy 
Secretary Harden joined Senators Klobuchar, Heitkamp, Cantwell, 
Hirono, and myself on the first-ever all-women's Senate 
delegation trip to Africa. It was really an extraordinary trip. 
Our time in Africa strengthened my appreciation of our 
country's commitments to helping fight global hunger and food 
insecurity, as well as our efforts to help empower women who 
represent the majority of all farmers in Africa.
    Additionally, Senators Leahy, Brown, and I, alongside other 
colleagues, had the opportunity a few years ago to see the 
McGovern-Dole School Feeding Programs in action when we visited 
Haiti after its devastating earthquake. This program was 
providing children, and is still today, with their only meal of 
the day, and it sends a powerful message to Haitian families 
about our American values.
    Chairman Roberts. Would the distinguished Senator just 
yield for a point?
    Senator Stabenow. I would gladly yield.
    Chairman Roberts. In Kansas, we refer to that as the 
``Dole-McGovern program.''
    [Laughter.]
    Senator Stabenow. I should have known that, Mr. Chairman.
    Chairman Roberts. Please proceed.
    Senator Stabenow. Well, we are very, very proud to be 
bipartisan.
    Chairman Roberts. Yes, ma'am.
    Senator Stabenow. The McGovern-Dole/Dole-McGovern program. 
It really is very powerful when you see it in action, Mr. 
Chairman, as you know.
    Tragically, today nearly 800 million people across the 
world are affected by hunger and poverty. Compounded by a 
growing population, climate change, strains on our natural 
resources, we face a significant challenge of how best to feed 
and sustain a growing world.
    This has also become a significant global security issue, 
as we know. As we look at the crises around the world today, 
whether it is a prolonged drought in East Africa or a severe 
flooding in Bangladesh, our emergency food aid programs are 
vital to so many families.
    It is in those moments of crisis that the United States has 
a proud legacy of extending a compassionate hand. The Food for 
Peace Program has become one of the most extraordinary 
partnerships to help alleviate hunger and suffering around the 
world. In fact, the story of the Food for Peace Program has 
been a story of partnerships throughout its history--
partnerships between American farmers and those in need, the 
U.S. Government and the on-the-ground volunteer organizations, 
and partnerships between Democrats and Republicans in Congress.
    We are proud of this record, and at the same time, we know 
that with new challenges come new responsibilities to make our 
international food programs even more effective.
    During the farm bill, Senator Roberts and I brought 
together a broad coalition to reform food aid while honoring 
the traditional partnerships that keep the program strong. The 
farm bill made permanent the Local and Regional Procurement 
Program and gave additional flexibility for Food for Peace to 
address hunger wherever and whenever it exists.
    Taken together, these changes represent the most 
significant reforms to our food aid programs in more than 50 
years. Our long-term goal, however, should be to reduce the 
need for emergency food aid by focusing on achieving global 
food security through advancements in nutrition and the long-
term productivity of agriculture.
    New agricultural technologies provide a platform for world 
communities to create stable food sources for families as well 
as economic independence. We must invest in those technologies, 
in people, and in the infrastructure both here and broad that 
support the growth of sustainable agricultural production. In 
doing so, we also invest in our own security.
    Achieving global food security is not only the right thing 
to do, it is the smart thing to do. A food-secure world is a 
safer and more secure world. Freedom from hunger is a basic 
right for all humans, and those of us in agriculture have a 
commitment to upholding that covenant.
    Mr. Chairman, again, I thank you for holding this important 
hearing, and I look forward to working with you and all the 
members as we continue to strengthen these effective programs. 
Thank you for allowing me to have the opportunity to speak here 
and then step away for a few minutes. Thank you.

 STATEMENT OF HON. PAT ROBERTS, U.S. SENATOR FROM THE STATE OF 
KANSAS, CHAIRMAN, U.S. COMMITTEE ON AGRICULTURE, NUTRITION, AND 
                            FORESTRY

    Chairman Roberts. I will proceed with my opening statement 
and wish you good luck in your endeavors--or our endeavors.
    Senator Stabenow. Yes.
    Chairman Roberts. We hope that you can make it back as soon 
as possible.
    As the distinguished Ranking Member has pointed out, one in 
nine people today, 800 million worldwide, will go to bed 
hungry. Around the world, impoverished regions are facing 
increasing challenges in trying to feed their people, from 
political unrest, social conflict like what we face in places 
like Yemen or Syria, to weather-driven crises with what we 
currently see in East Africa.
    As Chairman of this Committee and former Chairman of the 
Senate Intelligence Committee, I can assure you there is no 
issue in global security more timely or more relevant than food 
security. Show me a nation that cannot feed itself, and I will 
show you a nation that is in chaos.
    American farmers and ranchers have a deep understanding of 
the need to feed a troubled and hungry world. Back in 1953, a 
young Kansas farmer by the name of Peter O'Brien had the idea 
that U.S. farmers could give aid to other countries in the form 
of our commodities. He made the suggestion at a countywide Farm 
Bureau meeting, and eventually a resolution was accepted by 
both the Kansas Farm Bureau and the American Farm Bureau 
Federation.
    The next year, U.S. Senator from Kansas Andy Schoeppel, 
with the help of another Senator from Kansas, Frank Carlson, my 
former boss, sponsored a bill that was ultimately signed into 
law by yet another native son of Kansas, Dwight David 
Eisenhower. To this day, the Food for Peace Program, commonly 
referred to as ``P.L. 480,'' provides aid to nearly every 
country in the world.
    Now, while P.L. 480 is an enormous instrument in fighting 
hunger, it is just one tool of many, one of many in the toolbox 
of assistance. Since 1985, the Department of Agriculture has 
been using the Food for Progress Program to help developing 
countries advance their own agricultural assistance, which 
would naturally benefit our farmers and ranchers and all of 
agriculture in this country. By increasing productivity and 
expanding market and trade opportunities, countries are better 
able to grow their economies and respond to any regional 
crisis. According to the USDA, last year the Food for Progress 
Program alone generated nearly 10,000 jobs and provided 
training for over 220,000 producers.
    Then we have the McGovern-Dole School Feeding Program, or 
the Dole-McGovern Program. Through that program, the Department 
and partners have the ability not only to provide a child with 
a nutritious meal for the day, but offer the opportunity to 
receive an education. Yes, it is ``female-friendly,'' a new 
term that I had discovered in reading testimony for this 
hearing. With two granddaughters and two live-wire daughters 
and a very active wife, I would recommend to all members, all 
male members of this Committee, to adopt that term, ``female-
friendly.'' That works pretty good.
    Now, hard red winter wheat is currently traveling from 
fields in Kansas to Nicaragua in bags like the one that is 
shown over here to my right, right behind these very 
professional staff members who are trying to duck as I am 
pointing to the bag.
    [Laughter.]
    Chairman Roberts. At any rate, that is to be used as part 
of a school feeding program to boost nutrition among preschool 
and primary school children between the ages of 6 and 14.
    Under this Committee's leadership, we continued to help the 
mission of combating global hunger by making significant, 
realistic, and bipartisan reforms to food aid programs in the 
2014 farm bill, adding flexibility, transparency, and 
efficiency. The United States has proven that American 
agriculture plays a pivotal role in addressing food shortfalls 
around the world, and we must continue to consider new and 
innovative ways to get ahead of the growing population and 
production challenges. We really have no other alternative.
    International trade and the role played by the United 
States will undeniably play a critical role in getting food to 
those who need it the most. It is not enough, however, to 
improve the yields of small holder farmers if there is not a 
market where it can be sold, a silo where it can be stored, or 
a road upon which it can be transported.
    The Department has invaluable expertise in developing 
agricultural policy and has the capability to offer important 
technical assistance to nations establishing critically needed 
infrastructure. I myself personally think that among all the 
feeding programs we have in the Department, we could do more 
and certainly share information to do a more coordinated 
effort.
    The private sector has expensive knowledge in the 
development of the necessary value chains and new technologies 
that can address country-specific challenges. Our friends at 
the Department, along with USAID, our land grant universities, 
our commodity organizations, our NGOs, our PVOs, have a strong 
history of working together to promote an efficient and 
affordable food supply. I am very proud of the critical role 
our agriculture has played and will continue to play in 
combating global hunger. Farmers and ranchers in Kansas and all 
across America are committed to doing our part to feed a 
troubled and hungry world.
    I ask unanimous consent to enter statements for the record 
on behalf of industry stakeholders. I look forward to hearing 
from our witnesses.
    [The following information can be found on page 104 in the 
appendix.]
    Chairman Roberts. With that, we have recognized Senator 
Stabenow, so we will go ahead with our first panelist, our 
Deputy Secretary of Agriculture, Krysta Harden. The Committee 
extends a warm welcome to you this morning, Madam Secretary, in 
what I believe is your first time before our Committee since 
your confirmation hearing. Welcome back. Thank you for joining 
us to talk about an issue that I know is very close to your 
heart.
    Deputy Secretary Harden returned just weeks ago from a 
trade mission to Sub-Saharan Africa, and I know you will share 
some of your findings.
    The Deputy Secretary hails from Camilla, Georgia, where she 
began her roots in agriculture, coming from a line of three 
generations of southwest Georgia farmers. Ms. Harden has held 
leadership positions at the Department as Assistant Secretary 
for Congressional Relations and Chief of Staff to the 
Secretary, at the National Association of Conservation 
Districts as the chief executive officer, and with the American 
Soybean Association as senior vice president of Gordley 
Associates. She received her B.A. in journalism from the 
University of Georgia.
    I have a note down here from staff saying that it is 
imperative that I say, ``Go, Dogs.''
    [Laughter.]
    Ms. Harden. Thank you for not saying the year I graduated. 
I appreciate that.
    Chairman Roberts. Right. Welcome back, Deputy Secretary, 
and I look forward to your testimony. You are recognized. Thank 
you so much.

  STATEMENT OF THE HONORABLE KRYSTA HARDEN, DEPUTY SECRETARY, 
         U.S. DEPARTMENT OF AGRICULTURE, WASHINGTON, DC

    Ms. Harden. Thank you, Mr. Chairman, and I thank the 
members that are here. My home state senator, thank you very 
much for being here.
    The last time I was here for my confirmation hearing as 
Deputy in August of 2013, it seems like a long time ago and 
then sometimes like yesterday. But the Committee has always 
been very gracious and very generous to me, and I appreciate 
that very much.
    Thank you for going through my background. I think it is 
very important for this type of hearing to recognize where I 
came from, and it is from production agriculture. My parents 
are still on the farm, and my entire career I have thought 
about trade and markets that have been the focus of my very fun 
and successful career in this town and working in agriculture.
    But that has changed, and I hope, Mr. Chairman, that it is 
okay if I just talk. I have a written statement that all of you 
have.
    Chairman Roberts. Certainly.
    Ms. Harden. But instead of reading something--you can all 
read. Instead of doing that, I am just going to talk, and I 
will try to look at these lights, but I get wound up and long-
winded when I talk about this, so I will try to be as brief as 
I can and hope the Committee will indulge me.
    When I joined the Administration in 2009, President Obama 
made his first farm policy priority global food security, and I 
recognized that I had some learning to do. I was aware of the 
issues in the abstract. I thought about them. I was certainly 
aware of the tools that USDA had from my time with the Soybean 
Association. But it was not an area that I knew very well or 
had delved into or really felt a connection to. I, like a lot 
of folks, need to learn firsthand. Getting briefed, going to 
meetings, listening to others can only go so far. For me, it 
really is about getting on the ground. Talking to our staff on 
the ground, talking to NGOs, talking with the folks that we are 
reaching out to, that we are interacting with, and hopefully 
helping is the best way for me to learn. I just dove right in 
as Deputy. With the Secretary's blessing and encouragement and 
with our team at USDA and partners across the Federal family, I 
was able to lead a trade mission to Sub-Saharan Africa after I 
was Deputy just for a month. But I also went to Mozambique to 
see our work on the ground there.
    But one of the turning points for me was this spring when I 
really kind of got it, when the light bulbs went off for me, 
and I hope you will indulge me in this story.
    It was in Honduras. I usually want to go to Africa. My 
heart is kind of there, but I went to Honduras and Guatemala in 
Central America and went with our Ambassador 4 hours from the 
capital city. I grew up on a dirt road, so I know about dirt 
roads. But I had never seen one like this. We drove almost to 
El Salvador, I think, to this tiny village with this wonderful 
little elementary school. We were greeted by kids standing out 
all lined up singing a song--I cannot tell you what is was--
waving American flags, cheering, so happy we were there. It was 
very, very moving. You could not ask for a grander--it was like 
the red carpet on Oscar night. It was just that kind of moving 
situation.
    The Ambassador and I were able to serve lunch to third and 
fourth graders, little kids, like kids anywhere except they 
brought their own little bowls from home. The mothers fix the 
food every day, the porridge for them, and it was a soy-corn 
mix that was provided by the U.S. This was--I am going to get 
this right--a Dole-McGovern project. I should have said that 
from the beginning. These kids were just so happy and so normal 
and just delighted we were there, looked so healthy, so good.
    Some of the kids took us to a garden that they have on 
campus that the parents work with them in, and they are 
supplementing their diet with fruits and vegetables that we 
know is important, and your changes in the farm bill with LRP 
helped so that these kids actually had it on campus and did not 
have to have it from the community.
    Dads were there putting in latrines so the girls would stay 
in school. They need separate latrines. Everything you would 
think, even this remote area, you could see the difference that 
we were making. I was just feeling great.
    As we were winding down the visit, we went to the 
kindergarten. Here are little kids. I know little kids. They 
are squirmy at 5. They are wiggly, they are active. These kids 
were not. Their hair was dull, their skin was dull, their eyes 
were lifeless. They were sweet, they were kind, and you could 
sit down at the little tables and talk to them. But they did 
not have the benefit of the nutrition that the older kids have 
had. The stark reality of what our support and our help and the 
generosity of American farmers and American taxpayers in that 
school, seeing the difference in someone who has not had the 
ability to have a balanced diet, not to have good nutrition, 
was so amazing to me. I was not prompted about this. No one 
said, ``You are going to see a big difference. Look for this.'' 
It just was so amazing to see the difference. This one little 
girl's face I will never forget. I hope to see her after she 
has had a couple years of our rations.
    The other thing that I will never forget about this school 
was a sixth grader, a young girl, stood up and read to us a 
little--kind of a poem, something to me and the Ambassador 
about her learning, and thanking us for being there, just a 
bright, a very talented young woman. Her question to us was, 
``Please help me go to high school. Help me continue my 
education.''
    I think about kids in our country, I think about kids in 
other places who take so much for granted, who do not want to 
get up in the morning, who complain about homework, who do not 
want to go to school. Here is a young woman who knows the only 
way she is likely to be able to go is if we help. It is just a 
memory, sir, that I will never forget. It is memories that make 
me know that our investments, that our caring, our commitment, 
what we do, how we use the tools and the flexibilities that 
Congress has given us at USDA makes such a difference in lives, 
in people. It is not about numbers. It is not about dollars. It 
is about giving hope and opportunity and a chance. They do not 
want handouts. They want partners. I think that is what USDA 
does.
    I know that red light has been on, and I apologize, but I 
just thank the Committee for your work, for the additional 
reforms and changes. LRP is going to offer yet another tool for 
us. I appreciate the commitment this Committee has shown to 
this agenda, and you personally, sir. I know that the Dole-
McGovern Program is at USDA I believe from one of your efforts 
a long time ago, to make sure that it stayed at the Department. 
It was a wise decision.
    Thank you, and I encourage the members of the Committee, 
when you travel--and I have traveled with a couple of you, and 
we saw this firsthand. When you are out, I know you are busy, 
you have a lot of demands on your time and a lot of projects to 
see. I encourage you to work with USDA to get out to a school, 
and you will see firsthand the difference your commitment and 
your investment makes in someone's life.
    Thank you, sir. I look forward to further questions and 
discussion.
    [The prepared statement of Ms. Harden can be found on page 
45 in the appendix.]
    Chairman Roberts. Well, thank you for your personal 
testimony and your personal story, if it can be described as 
that. That is always helpful to put it in those terms, and I 
just have a couple of questions here for you.
    One of the most powerful tools that we have in our arsenal 
to combat hunger is the research being done at and through the 
Department of Agriculture, partnerships with entities such as 
our land grant universities. I am very proud of my university, 
my alma mater, Kansas State, one of the leading partners in the 
Feed the Future research effort, hosting four innovation labs 
that work in areas like post-harvest loss, the development of 
heat-resistant and high-yielding crops.
    My question would be: How do we take advantage of the long 
history and extensive knowledge we have of research, extension, 
and public-private partnerships, particularly in areas that you 
have described, in areas of the world that lack that structure? 
How do we put that together?
    Ms. Harden. Thank you, sir. One thing I have found when I 
have traveled is--and I am sure you have witnessed this as 
well--extension and our land grant system are the envy of the 
world. We have such great partnerships and the partnership USDA 
has with both is very valid. I do not go anywhere that I do not 
see logos from our favorite land grants, and Kansas State 
certainly being one. Working on the ground with our land 
grants, having students go learn, having research done and 
research shared with our partners around the world I think is 
one of the key benefits of our system and being able to share 
that.
    The Cochran and Borlaug, both of those programs I think are 
very key to the exchange of information as well, and you 
remember that the Committee has supported both of these for 
many, many years and making sure that researchers and 
scientists and other leaders from developing countries come to 
the U.S. and train at our land grants, learn about our systems, 
learn how to collect data, learn how to share that information 
with their producers.
    So I think that we use our tools in as many ways as we can, 
the flexibilities that we have in building these partnerships. 
I am reminded of a processing plant in Guatemala that I 
visited. They had graduated out of our programs, our Food for 
Progress programs, but were still very much viable, exporting 
snow peas and beans the day I was there to the U.K., the 
workers walking around with caps on their heads, I think it was 
Texas A&M and maybe Arizona State just happened to be at that 
facility. But the lasting deep relationship that many people in 
these countries form with our universities I think is part of 
the residual benefit, the connections that they have. I think 
that it is a lasting commitment, and we see the results of that 
in the work on the ground, and I commend our land grant 
universities for their continued commitment to this agenda as 
well.
    Chairman Roberts. We have a lot of resources and 
capabilities at the USDA. What resources and capabilities do 
you think would enable us to better and effectively deliver 
food aid under programs such as McGovern-Dole, strengthen the 
agricultural development in other countries through Food for 
Progress? What skills and programs are underutilized? Just to 
add another question there so we can both share the red light 
here, are there things that you could be doing or should be 
doing that are currently limited by Federal rules and 
regulations?
    Ms. Harden. Well, I will first answer the first part of 
that, and thinking about LRP, I am very hopeful we get a budget 
next week or very soon, and we will have for the first time a 
full program in LRP and we can actually utilize and complement, 
the McGovern-Dole/Dole-McGovern program by being able to buy 
locally, to have a more balanced diet for kids in that program. 
I think we will see additional results if we are able to fully 
utilize that program, which is $20 million in our budget 
proposal. If we are funded, that is three or four different 
projects somewhere around the world where we can see the 
benefits. I think that is definitely very important.
    I think the beauty of what we have at USDA in our programs 
is flexibility, to be able to adapt to the need and the desire 
and the demands and the needs of the communities that we are 
working in and being able to leverage our dollars. We look for 
projects where there is going to be buy-in from not only the 
national government but the local government, to be able to cut 
through the red tape, to be able to have lasting programs and 
get results, and also to use our NGOs, who are on the ground 
with so many resources.
    So I think it is the partnerships that we build at USDA 
with all those that I just outlined, very much our land grants, 
I should mention that again as well, and being able to use the 
flexibilities that we have.
    Chairman Roberts. My time has expired. I apologize to my 
colleagues. You did not mention any Federal rules or 
regulations that hamper you. If there are none, you are the 
only one in Washington that----
    [Laughter.]
    Ms. Harden. I guess I was just trying to be diplomatic, 
sir.
    Chairman Roberts. You can submit that for the record, if 
you would like.
    Ms. Harden. I will do that. That is a good idea.
    Chairman Roberts. Okay. I appreciate that.
    Ms. Harden. Thank you.
    [The following information can be found on page 64 in the 
appendix.]
    Chairman Roberts. Senator Perdue.
    Senator Perdue. Well, thank you, Mr. Chairman, and I am 
really proud to have somebody from my home State with roots at 
the--I know what the dirt road looks like down in Camilla, 
Georgia.
    I have a little story, too. I saw the results of what you 
do in Haiti last year. After the election, my wife and I went 
down and spent a weekend at an orphanage down there, and we saw 
that one meal a day, and it really does make a difference. But 
I have three questions I would love to give you. I am going to 
just lay them out first and let you answer these at your 
discretion.
    Ms. Harden. Certainly.
    Senator Perdue. One is this technology transfer. As you 
mentioned in your testimony, our universities, our land grant 
universities, as well as companies, the technology that we have 
developed in agriculture over the last 30 years is phenomenal. 
Our productivity has gone up dramatically. I have a very good 
friend who is CEO of Pioneer Seed Company, part of DuPont, and 
I look at corn just as an example. Productivity in corn since I 
was a kid, harvesting corn on our farm, I mean, it is just 
incredible. That only enhances our ability to help the rest of 
the world. So this technology transfer is one question. Can you 
speak to that?
    Second is the procurement. LRP you mentioned a couple 
times, but can you mention how important that flexibility is 
long term? I want to remind the Committee for the record that 
it is important that we work on technology transfer, because 
honestly--and I say this with all due respect--40 percent of 
what we spent last year as a Federal Government, including 
every one of our philanthropy programs, 40 percent of those 
programs, Mr. Chairman, was borrowed. That means these programs 
are in great jeopardy, and we cannot let anything happen to 
these programs. I know the need out there.
    The third area is waste. You mentioned in your written 
testimony 30 percent or so of the world's food production is 
waste.
    Can you just speak to those three briefly for us?
    Ms. Harden. I certainly can, sir. Thank you. They are all 
very valid and good questions, and, again, it is quite an honor 
to be with my home state senator always. I am so glad we always 
have a member from Georgia on the Ag Committee. It is nice to 
have two pictures up here, which we need to keep having more.
    Tech transfer, Secretary Vilsack often says that science 
has got to be shared, and technology has to be shared. It is 
something I think USDA has been a leader in around the world 
with our partners, looking at the great research and the 
science and the technology that we do have and sharing with our 
partners who do not.
    I was reminded of a story of how weather is just such a 
huge thing, weather predictions, for farmers. I mean, that is 
the first thing my Daddy asks, and it is the last thing he does 
before going to bed, is, ``What is the weather?'' so you know 
how to make decisions. He even asks me about weather here. I do 
not know why, but that is important to him. That is always the 
first question. Thinking about a producer in a remote area that 
does not get a weather report, has absolutely no idea. They do 
not know that the storm is coming. They do not know not to 
harvest and put maize out to dry and the weather is going to 
come. They do not even have the ability to know.
    So how do we communicate better, how do we share that kind 
of data on some of the very basic fundamental issues, not even 
the more complicated that you are addressing, I think is 
something that USDA wants to be and has been a leader on and 
will continue to focus on with this Committee's help.
    For LRP, long term I think it is the same relationship we 
see in our country in some ways with Farm to School, buy-in 
from a local community, a connection with that school, 
ownership of what is happening there, relationships, a local 
group of farmers who can help feed the kids in their school, 
whether they have kids there or not. Building those ties I 
think is very key. Also just the balanced diet that the kids 
will get, even if they are getting our porridge, our rations 
from the U.S., just like kids here, they need more vegetables, 
and being able to make that connection. But it is not just 
nutrition. It is also the buy-in and the commitment from that 
community who wants that school to stay open, they want their 
kids going there, they have a connection there. It is a market 
for them. It is a way to provide the sense of community and 
investment in education for all kids, boys and girls.
    Food waste, that could be a whole hearing on food waste, 
and the Committee maybe should do that at some point. Thirty 
percent is lost. In our country, it is more at the 
institutional level. At the personal level, folks like me who 
go to the farmers' market, I need three apples. I buy nine 
because I want to help that farmer, and then I do not eat them. 
I buy all this wonderful produce, and I swear to my husband 
every night, ``We are going to eat at home. I am going to cook, 
or you are going to cook.'' Then we go out.
    So a lot of us in the U.S. make those kind of decisions, 
but around the world it is post harvest, and it is some of the 
issues I have talked about, with not knowing weather, not being 
able to predict weather, not being able to gather crops, not 
having the tools to do so, the equipment to do so, the people 
to do so. Sometimes it can be a variety of things. But in the 
U.S., we have a pledge to cut food waste in half in the U.S. by 
2015, and we are going to continue to work with the rest of the 
world. I was able to lead a discussion at the UN Conference 
this fall on these very issues with all of our partners around 
the world. How do we address these issues? We are going to have 
9 billion plus people to feed by 2050. We need to be looking at 
all these tools, and food waste is one of them.
    Senator Perdue. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Heitkamp.
    Senator Heitkamp. Thank you, Mr. Chairman, and thank you, 
Deputy Secretary, for such a moving and appropriate opening 
statement. I think we do a lot especially in agriculture and 
alphabet soup, whether we call it Dole-McGovern or, USAID or 
USDA or this program and that program, we certainly saw a lot 
of them--World Food Program--when we are looking 
internationally. But the reality is that for those of us who 
have been to these places, especially rural communities in 
countries like El Salvador and countries like Ethiopia, we see 
the absolute critical need to engage. That engagement is not 
just about humanitarian interest. It is in our national 
security interest. We are seeing, again, because of the 
disruption of security in El Salvador, we are seeing a surge 
again at the border of unaccompanied minors, a lot of those 
children who are most at risk. I have been to El Salvador, 
Honduras, and Guatemala in the last probably 4 or 5 months and 
have seen what that migration from rural areas, for lack of 
ability to make a living, to urban areas, the disruption, the 
social disruption that that has created and what has happened 
in terms of risk.
    So I want to talk not just about these programs but talk 
about the value of these programs in getting to those 
communities where there you can start talking about soil 
science, you can start talking about co-ops, you can start 
talking about storage of crops, maybe even get a little 
electricity so that they can download weather reports. I mean, 
there are a whole lot of things that we will never be able to 
feed the world from relief programs.
    I would like you to just speak to how this gives you an 
entree into those communities and what advice you would give us 
as we move through, I think, this discussion about food 
security and making sure that committees like the Ag Committee 
remain in charge of this distribution, because at the end of 
the day what we are trying to do is create more opportunity 
globally for farmers.
    Ms. Harden. Thank you, Senator. You and I have talked about 
these issues many times, and I know we share a passion for 
them, and so it is great to be with you today.
    A lot of things you hit on are so true. I think we all know 
that it is much better if kids are listening to a teacher 
instead of their empty stomach growling, and that is what our 
programs are able to do, and it does build stronger 
communities, it offers jobs, when we are in a location and can 
actually provide opportunity for the young people to be 
educated and to help their families, help their communities.
    So I have seen the benefits of our programs and our work on 
the ground, and I hope that this Committee continues to provide 
us the flexibilities like with LRP and other reforms that give 
us more tools to get to work with folks.
    As I said earlier, people do not want a handout. They want 
a partner. I think that is what we are at USDA.
    I think that we relate so well to folks in rural 
communities. When I am on the ground, it is like rural 
communities here. It is so fun to sit and talk with a group of 
farmers. I always talk to women farmers, as you know, but men 
and women farmers relate to each other. You could be anywhere, 
except for some language barriers sometimes, it is anywhere. 
They are worried about weather. They are worried about what is 
happening on their operations. They are worried about their 
families. Farmers and ranchers are the same at the heart level. 
I do believe that. We have so many tools here that we can 
share, and I think we need to do that.
    Senator Heitkamp. We have a lot of really great partners in 
the philanthropic world--Howard Buffett, the Gates Foundation 
very involved, we saw their work in terms of doing extension. 
But one of the things--and I had a chance to just spend time 
with Mike Johanns before he left, who I have just such 
tremendous respect for, and I said, doing international work, 
what is the one priority that you think we should exercise? He 
said, building out co-ops and that extension. Extension and co-
ops have really--I mean, they are the bedrock of what we have 
been able to do in American agriculture.
    How can we do a better job assisting in building out, 
farmer-to-farmer relationships internationally and then 
obviously, extension, which is critically needed?
    Ms. Harden. I think a couple of things, and I have 
mentioned some of them already with our Cochran and Borlaug 
exchanges. I think having folks come from other countries, come 
to the U.S. to understand how we do that, how things are set up 
to be able to take that back home and do it working with folks, 
there is no doubt extension and our land grant systems are the 
envy of the world, and we probably take them for granted. But 
being able to help do that, and co-ops as well, and for women 
in particular, I think it is very helpful. These are small farm 
holders. They are not large, so you do not need a huge tractor. 
You need a small machine or tool that you can actually share 
and work together. I saw a great co-op, milk collection, in 
Rwanda this summer where the milk is delivered sometimes by 
hand and by bicycle, a can strapped to the back of a bicycle, 
or maybe a little motor scooter. This is, a couple of cows, but 
it is delivered every day, and these farmers--many of them are 
women--are bringing their milk there together, and it is 
pasteurized and provided for the local community.
    So there are small co-ops. It is a different concept. It is 
teaching and explaining and gathering information and sharing 
it with many of the farmers in other countries. We just take it 
for granted. We understand how working together might make 
sense. We have to help teach and guide and show them how this 
can be done.
    Senator Heitkamp. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Klobuchar.
    Senator Klobuchar. Well, thank you very much. Deputy 
Secretary, I want to thank you for your incredible work, and 
last year, Senator Heitkamp and myself and Senator Stabenow and 
Senator Hirono and Senator Cantwell had the opportunity to 
travel with you to Africa on the first-ever women Senators 
trip. We would have invited you, Mr. Chairman, but it did not 
work. Glass ceiling.
    But I wanted to commend you for your work not only on that 
trip, but just how hard you work in terms of making not only 
the words sound so meaningful at this hearing, but also 
actually taking action. There we saw on that trip in Senegal, 
Tanzania, and Ethiopia some of the partnerships going on with 
companies from my State like General Mills and Cargill in terms 
of getting more nutritious food, like at Faffa Baby Food, a 
place I think the President later visited.
    Could you talk about how we can build on this public-
private partnership in terms of making sure that we increase 
the effectiveness of our own Government programs?
    Ms. Harden. I think we have to. There is absolutely no way 
that we can do it by ourselves in the Federal family, and we 
should not be, frankly. We need the investment and the buy-in 
and the commitment from other partners, and we do have that in 
the private sector. I remember the incidents with the food as 
well. There is fortification of products that are done. I was 
just in Ghana recently, as the Chairman mentioned, and went to 
a facility that Hershey from Pennsylvania is actually 
supporting with peanuts. Not coming from Georgia, that was the 
only kind of downside about this project, but they were 
actually making a fortified supplement, a nutritional 
supplement for kids, an investment working with USDA, working 
with private entities, working with our land grants. It is all 
about partnerships, and we continue to look for opportunities. 
That way we can leverage the resources that we do have to get 
them to more places, to more people, and to make a bigger 
difference.
    Senator Klobuchar. Very good. The other aspect of that trip 
is we focused a lot on women in agriculture, and then closer to 
home, I know you visited Minnesota and North Dakota. I have a 
great photo of the three of us and a rather large piece of 
agricultural equipment. We know that women account for more 
than 60 percent of global food production. They are the 
backbone of so many of our rural economies in the developing 
world, yet they face challenges of land rights, access to 
credit. So they are basically doing the work, but do not always 
have the ownership or get the amount of money that they should 
for their work.
    I know that the Food and Agriculture Organization of the 
United Nations estimates that if women had access to the same 
resources as men, their farms would increase yields by 20 to 30 
percent. That alone would alleviate hunger for 100 to 150 
million people.
    In what ways do our current food assistance programs focus 
on empowering women as part of the solution to world hunger?
    Ms. Harden. I could talk the whole day about women and the 
work of women and the dedicated, hard work that they do around 
the world, in our country as well as in developing countries 
even more so. They are also responsible for raising their kids, 
taking care of their families. I think of a woman that I met in 
Ethiopia at a small dairy, and she was one of the women who 
actually had men working for her, very unusual, with seven men, 
including her husband, and she had a methane digester that 
heated her cook stove in her house. She could not read or 
write, and so everything that she learned through this program 
was by demonstration.
    So many women, they are ambitious. They want to do more. 
Ritu Sharma is quoted as saying that if you teach a woman to 
fish or farm, that she will not only feed her family but her 
community. I believe that is exactly right. The numbers that 
you read are so disturbing to me personally, to think about 
that women do not have access to credit. Maybe 10 percent of 
that 50 or 60 percent that are farming, and they are producing 
about 80 percent of the food, many of them cannot own land or 
transfer land. I think about my own family. If anybody told me 
that my sister and I could not inherit our farm, I cannot 
imagine how that must feel to young women, to daughters, to 
granddaughters, to nieces, to think that that would not be 
available.
    Senator Klobuchar. So do you think that with the aid that 
we do give we could use that as leverage to get these countries 
to change their laws?
    Ms. Harden. I think there are a couple of things we do. We 
make sure girls get educated, and we focus our feeding programs 
on girls. We highlight girls. Many of them not only come to 
school because they can get a meal that day, but there are bags 
of beans or rice that they can take home. So it is an incentive 
for the entire family to make sure that girl, that daughter, 
those daughters are educated. We can make sure the girls feel 
comfortable going to school, that they have separate latrines. 
There are things that we can do to help educate so the 
decisions come--they become the leaders, they become from the 
ground up.
    One of the most powerful, effective Ministers of 
Agriculture on the continent of Africa in my personal opinion 
is a woman in Rwanda, and she is just a dynamo. She 
participated in the Borlaug program at Michigan State. I am 
sorry that Senator Stabenow did not hear me say that. She is 
back home, and when you talk to her about issues about women 
farmers and women landownership, she was educated, and she came 
here, and she understands the value and the need. We have to 
empower women. We have to keep the pressure on.
    I remember when we met with the Prime Minister in Ethiopia, 
and we raised the question to him and he said, ``Even though it 
may be not the law, as long as I am Prime Minister, it is going 
to be this way.'' Well, what about when you are not? That is 
the questions we have to continue to answer.
    So I think it is from the top down and asking the 
questions, encouraging the dialogue at your level, at my level, 
the Secretary's level. But it is also making sure that girls 
are educated and we are helping to do that with the programs 
that we have on the ground, and then working with women 
farmers, business owners. I had a roundtable in Ghana with 40 
producers, small business owners, researchers--all women--
talking about the barriers of export and how they get involved. 
We can help and empower them often by being there and using all 
of our tools and our flexibilities.
    I know I am out of time. I told you I could get wound up on 
this one, so I am sorry.
    Senator Klobuchar. Very good. Thank you. Well, I am glad 
you have shared that with all of us, so it was very meaningful, 
and I hope--of course, women are not the only ones that can 
raise the issue. Everyone can raise this issue.
    Ms. Harden. Exactly right.
    Senator Klobuchar. Because I think it is one of the keys to 
moving forward here internationally. Thank you.
    Ms. Harden. Thank you.
    Chairman Roberts. Thank you, Senator Klobuchar, and thank 
you for targeting a most important topic. Madam Secretary, 
thank you for your passion.
    Senator Boozman?
    Senator Boozman. Thank you, Mr. Chair, and I thank Senator 
Klobuchar for her question. It is interesting, and you know 
better than anybody, but the instance of grinding poverty has 
decreased substantially in the last 10 years, and a lot of it 
is due to the fact that, through our hard work and others' hard 
work, we have a situation where people can get out and start 
earning a living by breaking down in Africa just the barriers 
of the borders, all of those kind of things. The good news is 
it seems like that, the various countries involved see that 
they are having success, and it is kind of snowballing a little 
bit.
    But I think that anything we can do along with the food 
aid, as the Senator is alluding to, to help that process, 
particularly with women, them being such the fabric of the 
society in these different countries, is really very 
beneficial. So I would just echo what she brought up.
    We continue to be the most generous Nation on the Earth as 
far as providing food aid. Since World War II, I think we have 
literally saved millions of people from malnourishment and 
things. We can be so very, very proud of that. As the co-chair 
of the Hunger Caucus and then somebody that represents lots of 
farmers in Arkansas, like I say, we are very, very proud of all 
that we have done.
    Can you talk a little bit about the USDA Food Aid Program 
and the impact it is having on the world in these very 
difficult situations where people desperately need some help?
    Ms. Harden. Yes, thank you, sir. We are very fortunate, I 
think, at USDA to have so many tools that we can use. As I 
mentioned earlier in the very beginning of my statement, being 
able to adapt the tools that we have, have the flexibilities to 
create partnerships, to adapt to the needs and concerns, to 
build the relationships on the ground, to work with the private 
sector, NGOs, and other partners from the U.S., I think that is 
what is most effective for us. Also having buy-in from the 
national government where we are, so when we are not just 
there, we pull out, the program is graduated and it goes away. 
What have we accomplished? We have helped for a few years, but 
we do not have that lasting residual benefit.
    So I think we are very careful and try to be at USDA to 
make sure we have not only buy-in at the national level when we 
have projects, but also at the local level. I mentioned the 
school on Honduras where the entire community embraced that 
little elementary school. LRP is going to give us even more 
opportunities. I was talking earlier about having the local 
procurement of vegetables and maybe fruits for a school so the 
community sees the benefit of having kids in that school. It is 
a market for them. That helps build infrastructure. It helps 
with storage. It helps with all the things that are needed to 
make sure that the farmers stay successful. It just helps build 
an infrastructure.
    I also would just add that our trade does the same as well.
    Senator Boozman. I was going to ask about that. I know you 
were in Sub-Saharan Africa promoting----
    Ms. Harden. Yes, sir, with a lot of Arkansans.
    Senator Boozman. Well, again, promoting--we talked about 
the importance of jobs in solving these, but talk a little bit 
about trade in regard to that.
    Ms. Harden. Yes, sir. I just mentioned the trip to Ghana, 
as the Chairman mentioned in the very beginning. I led a trade 
mission and included--also I was very happy to see a number of 
States represented, including Kansas, sir, as well had a 
representative from the State Department of Agriculture. We 
were looking at ports. We were looking at refrigeration. We 
were looking at all the elements in the chain that are needed 
to have trade. Trade is two-way. We were looking at markets 
there. There is a growing consumer group in western Africa, 
actually in Ghana, but there were representatives and buyers 
probably from five or six or ten other countries in that area 
wanting our goods, really wanting the quality, the consistency 
that you get from American product, but the infrastructure has 
to be there. We spent a lot of time at the port, looking at 
where the goods would come in. Is there enough refrigeration? 
Are there enough checks and balances there to make sure folks 
are going to get paid? There are certain kind of issues that 
you have to work through.
    But as we worked through being able to have the two-way 
trade, it builds infrastructure that the local producers can 
use as well, and I think that is the residual benefit.
    Senator Boozman. Right. One last thing. You talked about in 
your testimony the worldwide demand for food is going to 
increase 60 percent by 2050, really being able to feed 9, 10 
billion people. Can you talk about the importance of 
agricultural research in meeting that demand?
    Ms. Harden. It is so understated, sir. I do not think the 
rest of the public understands the value--they do not even 
understand the results of the research that we have gotten, 
that they benefit from every day, that not only our farmers and 
ranchers benefit from but consumers do. So I think we still 
need to continue to have the investments in ag research. We 
very much appreciate the foundation that was created in the 
last farm bill by this Committee. I think that is one step in 
making sure that we can leverage private dollars with public 
dollars, but we certainly need to be focusing on many of these 
key issues, and working with our land grant institutions as 
well. I think it will be the combination of the Federal 
Government as well as land grants and the private sector.
    Senator Boozman. Thank you, Mr. Chairman.
    Chairman Roberts. Senator Ernst. You are recognized, 
Colonel.
    Senator Ernst. Thank you, Mr. Chair. I appreciate that. 
Thank you very much, Secretary Harden, for being here today.
    When the USDA and other agencies that are involved in that 
whole-of-government approach to food aid programs determine 
where to focus their efforts, is the political stability of the 
country or the region that you are looking at, is that a factor 
when making those determinations?
    Ms. Harden. It certainly has to be for USDA, and that is 
who I will speak to. When we are looking at the best places to 
make investments and build these partnerships, you have got to 
have a partner. You have got to have a willing and able partner 
to make sure that there is a lasting commitment, as I was 
talking with the Senator from Arkansas just a moment ago, 
making sure that there is buy-in, there is commitment. We 
obviously want to make sure that our personnel are safe, so you 
want to go to places that are stable, but also where there is a 
commitment from the other governments, whether it is at the 
national level and the local level, to make sure there is buy-
in, so it is not just a drop in the bucket, that it is 
leveraged, that it is a lasting commitment, and so you do need, 
again, a willing partner from the host country.
    Senator Ernst. Then looking at those willing partners, 
then, do you look at what that national security risk might be 
to the United States to determine would that be a willing 
partner? Is it worth a long-term investment to make sure that 
they are not--as we look at the turmoil in the Middle East, if 
we can help ease some of their food instability, maybe they 
would be less likely to produce people that would be wanting to 
harm us, is that part of the process as well?
    Ms. Harden. I think Senator Heitkamp, before you came in, 
Senator, talked a little bit about that. It also helps with 
national security. Global food security is also a national 
security issue, and I think you are exactly right. Hungry 
people, disgruntled people, nothing is worse--I know how 
irritable I get when I am a little bit late for a meal. I have 
never really missed a meal. I will be honest with you. I could 
probably miss a few and be okay. But I just know how aggravated 
I get, and I cannot imagine if that is a sustained symptom that 
you do not have enough food, how you are susceptible to others, 
I can see just in my own body how I react when I do not have 
enough nourishment. If it is chronic and if it is lasting, 
obviously there are going to be some problems.
    So we do look at that, and I was talking about Honduras 
earlier, and so was Senator Heitkamp, our work there, and 
Guatemala, trying to find opportunities for our young people, 
getting them educated, having them well fed, well nourished. 
That is very much part of the overall goal.
    Senator Ernst. That is very good. Earlier last week, I 
attended a conference in Des Moines that focused on a number of 
these issues, and food security, of course, is one. Then there 
are other avenues or lines of effort that we can use in making 
sure that the world is a more secure place.
    Since many of the commodity and food transfers are to areas 
of the globe that are not as politically stable as we are here 
in the United States, what do you see the role of the armed 
services in doing some of those food transfers or working in 
those particular regions?
    Ms. Harden. That is probably less of my expertise, but 
certainly in emergency situations, I know that the Government, 
the Department of Defense, has been involved in those things. 
In the work that we do at USDA, it is less involved. I believe 
maybe National Guard has been involved in some of our work in 
Afghanistan earlier in the Administration. I do not remember 
all the details, but the work that we do at USDA, it is less of 
a need for the Department of Defense to be involved. It might 
be for more emergency and certain situations.
    Senator Ernst. That is very good, because I know that we 
do--and Iowa has participated in this as well, but agricultural 
teams that have deployed through the Iowa Army National Guard, 
a number of other States have done that as well.
    Ms. Harden. Afghanistan may be an example.
    Senator Ernst. Afghanistan is a great example. We did have 
a team there about 4 or 5 years ago that did a rotation in 
Afghanistan. I think that is one way that we can utilize our 
military forces in those areas that are less stable than some 
of the other regions of the world in trying to teach and 
educate others.
    Any particular thoughts on those types of programs?
    Ms. Harden. I do not. Like I say, for USDA, we are usually 
in more stable environments than others may be, except maybe in 
emergency situations. So I do not have, but I am happy to talk 
to folks at USDA who know a lot more about this than I do, and 
we will get you an answer.
    Senator Ernst. Well, I appreciate it so much. Thank you, 
Mr. Chair, very much.
    Ms. Harden. Thank you, Senator.
    Senator Ernst. Thank you.
    Chairman Roberts. Senator Casey.
    Senator Casey. Mr. Chairman, thank you very much, and I am 
sorry I was not here earlier. I would just make a brief 
statement and maybe ask one question as well.
    First of all, I want to thank Deputy Secretary Harden for 
being here and for her work. As was discussed, I know, earlier 
today when I was not here, this issue of food security and how 
we put in place strategies to reduce the likelihood that 
someone does not have enough to eat around the world and here 
in the United States is a security issue. I know others have 
discussed that. It is literally a national security issue.
    The good news here is that in the last number of years, 
starting before the current administration but really amplified 
since then is the success, the remarkable success of Feed the 
Future, which I know is not the direct subject of today's 
hearing, but certainly has a connection.
    Senator Isakson and I are leading the effort to pass the 
Global Food Security Act, which would, in essence, codify, put 
into permanency the Feed the Future Program, which here are the 
numbers on Feed the Future:
    In 2014, Feed the Future reached more than 12 million 
children in the world with nutrition interventions and helped 
nearly 7 million farmers gain access to new tools or 
technologies to help them have greater yields with their crops 
and also to feed the world and especially to feed children. So 
among the many things we have got to do domestically, I want to 
make sure that we continue that success with Feed the Future.
    I want to ask, Deputy Secretary Harden, I know that USDA is 
a leading participant in what Feed the Future is, which is a 
whole-of-government approach. How can we better draw upon both 
USDA's expertise and resources to make sure that we keep moving 
in this direction with regard to Feed the Future especially, 
but maybe in some other contexts as well?
    Ms. Harden. Thank you, Senator, and thank you for your 
leadership and your commitment to this. Feed the Future has 
been extremely successful, and as I said in my opening 
statement, it was the President's very first foreign policy 
priority, and I believe it has been successful. I believe it is 
recognized as successful. There are 11 different agencies, you 
are right, who are involved in Feed the Future, and USDA 
certainly is front and center. We work very closely with our 
Federal family on the ground in many locations around the 
world.
    One of our main roles is capacity building, which I think 
is very key for the lasting residual commitment so that when we 
leave a community, there is still an infrastructure there, 
there is still the ongoing benefits of the investment. I think 
that is one of the great things we have.
    Our folks at USDA, to quote the Administrator of FAS, Phil 
Karsting, we are ``more work horses than show horses,'' so 
sometimes folks do not really fully know what we do on the 
ground. They just know the work gets done. We have that get-
'er-done attitude, as we do across USDA. Here in the U.S. our 
folks on the ground have the same kind of commitment to working 
with farmers and ranchers and helping landowners, helping them 
build infrastructure, helping them develop market streams so 
they can continue to create livelihoods for themselves and grow 
their operations and have stability.
    So I think the work that we are doing just needs to be 
continued and enhanced. I think that we know what to do on the 
ground. We know how to work with landowners and with the 
farmers.
    Senator Casey. I appreciate that.
    Mr. Chairman, I am giving back a minute. Thank you.
    Chairman Roberts. Senator Grassley.
    Senator Grassley. Secretary Harden, I just have one 
question.
    Ms. Harden. Yes, sir.
    Senator Grassley. That is, you stated in your testimony 
that the United States is the largest donor of food in the 
world. Do you have any figures on whether other countries come 
close to donating what the American taxpayers do along this 
same line?
    Ms. Harden. Sir, I do not have exact numbers. I am happy to 
get those for you. I know that the U.K. comes to mind. There 
are others, other developed countries and entities around the 
world that do. But I will be happy to get you those exact 
numbers. I do not have them off the top of my head.
    Senator Grassley. I would appreciate it for the record 
then.
    Ms. Harden. Yes, sir, I certainly will.
    Senator Grassley. Thank you. I yield back my 4 minutes and 
23 seconds.
    [Laughter.]
    Chairman Roberts. That is rather remarkable, Senator 
Grassley.
    [Laughter.]
    Chairman Roberts. Senator Grassley, I have a note here 
delivered to me by Senator Boozman in your behalf stating that 
you are extremely disappointed that the leadership of this 
Committee is not providing snacks.
    [Laughter.]
    Senator Grassley. I would think you could at least as well 
as Ms. Stabenow.
    [Laughter.]
    Ms. Harden. Where are the Georgia peanuts, sir?
    Senator Brown. We kind of like sunflower seeds. Sunflower 
seeds could work.
    Chairman Roberts. We will have order.
    [Laughter.]
    Chairman Roberts. Sir, the snacks have been delivered to 
the World Food Program.
    [Laughter.]
    Chairman Roberts. I think are on the way to Bangladesh. But 
we have a reserve. We do not have the necessary funds for that. 
Perhaps you could be of help to us in the appropriations 
process, so snacks will be delivered if you will just be calm. 
I know that is very difficult for you, but at any rate, we will 
have snacks for you momentarily. Would you like to----
    Senator Grassley. Well, I am shocked at how fast you 
operate. Usually it is not that fast. Thank you very much. I 
will be glad to eat them.
    Chairman Roberts. You ask, we deliver.
    I am not sure where we are.
    [Laughter.]
    Chairman Roberts. Mr. Boozman?
    Senator Brown. Snickers?
    Chairman Roberts. You could share that down to Senator 
Thune and over here to Senator Brown.
    Senator Stabenow. Mr. Chairman, are those made in Kansas?
    Chairman Roberts. Yes. This is a Mars company product from 
Topeka, Kansas, as a matter of fact.
    Senator Brown. Koch brothers own it. Don't the Koch 
brothers own this?
    Senator Grassley. If you want to continue----
    Chairman Roberts. If that is the case, you should consider 
that a hot basket, Sherrod.
    [Laughter.]
    Senator Grassley. If you want to continue this discussion, 
it was the Senator from Arkansas that had the idea of writing 
you the note, but it happened that he told me that----
    Chairman Roberts. This is in your handwriting, sir.
    [Laughter.]
    Chairman Roberts. All right. Let us get back to a serious 
situation. Madam Secretary, I apologize for this diversion. 
Senator Brown?
    Senator Brown. Thank you, Mr. Chairman.
    First of all, Madam Secretary, thank you for the work that 
you have done on McGovern-Dole. A number of my colleagues have 
seen these programs at work. I was in Haiti a number of years 
ago and saw what it did for particularly getting young girls to 
school, what it does for the children themselves, what it does 
for the families, what they are able to take home in the 
evening and for weekends, and what it does for American 
agriculture, too. But there are fewer things that--I hate the 
cliche ``win-win-win,'' but there are fewer things that fulfill 
that the way McGovern-Dole does, so thanks for your leadership, 
your outspokenness, and always your assertiveness on that 
program.
    I wanted to ask you one question. In your testimony, you 
touch on the impact that climate change will have on 
agricultural production and food insecurity around the world, 
something that we do not maybe want to think about enough, the 
impact of what we are doing in this country on what happens for 
people who are self-sufficient, who are feeding themselves and 
their neighbors, and the impact that has especially on the poor 
in the developing world.
    Discuss, if you would, the ways USDA can prepare farmers in 
the developing world for these changes and work into that how 
USDA projects climate change will affect global hunger.
    Ms. Harden. It is interesting, Senator, that when you talk 
with farmers in this country or around the world, some of the 
conversations are very much the same. They worry about extreme 
weather. They worry about drought, pests, and disease. All the 
problems that our farmers have to deal with here farmers around 
the world are having to deal with. So the conversations are 
very similar.
    We are lucky here in that we do have tools to deal with 
many of these issues, and sharing those tools with the rest of 
the world is something that is a call to action, is something 
that USDA cares about, this Administration has supported, and 
making sure the information, the technology, the conservation 
practices.
    I know firsthand that our farmers and ranchers are the best 
stewards of the land and given the right tools--sometimes it is 
technical assistance, sometimes it is financial assistance, 
sometimes it is a combination. But given the right tools, the 
right information, they are going to make wise decisions about 
their natural resources.
    Farmers around the world, and landowners, do not always 
have those tools. They do not have that information. We have 
what Secretary Vilsack created here, Climate Hubs, which is 
just a place for information and data that farmers can go to to 
get it. I actually visited one. They are not actually bricks 
and mortar, but just a collection of information, and people 
who have worked together in Puerto Rico and looking at the 
coral reef loss and the impact of drought on Puerto Rico, and 
now countries in Central America are coming to that Climate Hub 
and saying, ``We would like that data. We would like that 
information. We are having very similar issues. We are 
neighbors in that region, and we would like to be able to have 
that information.''
    So I think it is something that we can do, we can share our 
information, the data that we have, the conservation practices, 
the tools that our farmers are using in adapting to help 
mitigate many of the impacts of the changing climate.
    Senator Brown. Mr. Chairman, thank you very much.
    Chairman Roberts. Senator Stabenow.
    Senator Stabenow. Well, thank you very much, Mr. Chairman. 
Again, thank you, Deputy Secretary Harden. I apologize again 
for having to step away, and we appreciate your time. 
Obviously, there is a tremendous amount of interest in what you 
are talking about today and the important actions of the 
Department.
    I wondered if you could expand just a little bit more as 
you are talking about weather-related things and climate-smart 
agricultural initiatives, because the USDA is playing a 
leadership role, not just here with our farmers playing a 
leadership role, but internationally, the Secretary is speaking 
about this now. So how, when we look at the administration's 
overall effort to address global food security projects, a 
little bit more about the specifics of what is being done and 
what more could be done.
    Ms. Harden. Well, the Climate-Smart Alliance, as you 
mention, is just that. It is an alliance. It is a group of 
like-thinking countries and other groups who have come together 
to say we need to pay attention to this, we need to share 
information, and it creates a platform for being able to do 
that.
    As you know, we talked about that in our travels, in all of 
my travels. It always comes up with Ministers of Agriculture 
and other leaders to talk about how do we get this information. 
Again, as I was just saying with the last question, farmers and 
landowners have the same concerns. They see changes in trying 
to farm and produce food, and we know if we do not adapt, if we 
do not make changes ourselves in our conservation practices or 
how we farm, where we farm, if we do not use all the science 
and technology that is available, we are going to have greater 
problems. We have the information or much of it in the U.S., 
and sharing that and having the buy-in and the commitment to 
work together I think is what the alliance is able to do and 
really encourage the discussion, encourage the exchange of 
information and the science and the data that we have, and that 
is evolving. It changes all the time, and we need to make sure 
that we are staying on the forefront of these issues.
    Senator Stabenow. Thank you very much. I want to go back. I 
know you talked a little bit about AGOA in general, and it was 
so interesting for me when we traveled together to see that the 
majority of agriculture is women, leading the co-ops, doing the 
work, and so on, the vast majority, which was interesting to 
me. When we talked to the President of Ethiopia about the fact 
that to strengthen them from an economic standpoint, it meant 
empowering women to own their own land, to be able to get 
loans, to be able to have inheritance rights and so on.
    So when Senator Roberts and I led the amendment to AGOA, 
which would expand the USDA's role in trade capacity building 
specifically for women-owned farms and businesses, I wonder if 
you might talk about this new authority and what it means for 
USDA and how trade and the Foreign Agricultural Service can 
address the long-term food security issues by strengthening 
those from an economic standpoint that are doing the work.
    Ms. Harden. I can first just say thank you for your 
leadership to you and the Chairman for that amendment. I think 
it is spot on. I think it is exactly right. I hope that we get 
our budget soon and we can be ready to implement this. It is 
something I want to bird dog myself and make sure that it is 
done and done properly.
    I mentioned earlier, I think when you were out of the room, 
that I was able to host a roundtable just in Ghana recently 
with women farmers, small business owners, researchers, 
leaders, talking about exports and how they can send products 
to the U.S. They have products they want to send. They want to 
use AGOA benefits, but they have trouble with SPS. They have 
other issues. They do not understand all the requirements that 
we have.
    I think getting that implemented would help very much women 
just like the 40 that I happened to meet with and others around 
the continent work through those kind of delicate, sensitive, 
but very, very important issues to make sure that they can 
export to the U.S. They are ready to do so, they have product, 
but they need to know how to maneuver in many cases and get 
their products ready to meet our standards.
    So just hats off, thank you very much for that leadership, 
very well needed, very well timed.
    Senator Stabenow. Thank you, Mr. Chairman.
    Chairman Roberts. I have one other question, and I 
apologize to the other witnesses. We have some expert witnesses 
on the next panel.
    Imagine that you are with me in Dodge City, Kansas, and you 
are at the local restaurant where we have the Dodge City coffee 
klatch, which is my--these are all my advisers. They talk about 
the weather. They talk about price at the country elevator, et 
cetera, et cetera. You are familiar with these things with 
regards to Georgia.
    Ms. Harden. Yes, sir.
    Chairman Roberts. I turn to you and whisper that you might 
want to pick a number a little higher. It is a numbers game 
when they try to stick you for the coffee.
    [Laughter.]
    Chairman Roberts. But I would like to have you explain to 
them why the LRP program is so important. They do not even know 
what that is. That is an acronym. We all have acronyms. I am 
not sure how to pronounce that one. I am not going to try it. 
But focus on that a little bit from the standpoint of 
developing or having the opportunity for a country to develop 
that capability and what that means for them in terms of price 
and in terms of the agricultural community of Dodge City to 
export products to that country.
    So I just have introduced you, and I say, ``Please explain 
to these farmers why LRP is important with regards to what you 
are doing.''
    Ms. Harden. I would first hope they could understand my 
Southern accent, so you may have to be the translator.
    Chairman Roberts. Do not worry about it.
    Ms. Harden. But assuming that they could understand it, 
LRP, Local and Regional Procurement is what LRP stands for. We 
do talk a lot in Washington about acronyms, and it is a whole 
different language, and I am guilty of it myself, and we should 
not----
    Chairman Roberts. Do not worry about that. Just explain to 
farmers why this is important.
    Ms. Harden. We should connect the dots. It is important 
because it actually gives a market, an opportunity for local 
farmers to connect with their schools, to connect with other 
entities in their own community. It creates a market and all 
the infrastructure that goes into that. It helps bring 
stability to a local community. It creates jobs. It creates a 
system, a purchasing system, a marketing system, an operations 
system for agriculture. Just like in a small town--I am from 
Camilla, Georgia, a small town. My Daddy grew up on a produce 
farm. You need markets. You do not have a long shelf life. It 
is not like a grain. You have to have a market, a nearby market 
in many cases. That is what this creates. It creates stability 
in communities. It gives jobs. It gives opportunity for local 
farmers to help themselves, to create markets for themselves.
    Chairman Roberts. But in turn, I am trying to describe to 
them how that benefits them. We have had a history of a Food 
for Peace Program and all the rest of the programs and the PVOs 
and the NGOs and the Gates Foundation and the UN, the World 
Food Program, and then all of the programs within the 
Department of Agriculture which is the basis of what we are 
doing, and you are doing an outstanding job.
    I know what some of these guys would say. They would say 
simply, ``Why don't we have an LRP program for Dodge City?'' We 
do in different ways.
    Ms. Harden. We do. Yes, sir, that is what I would say, is 
we do.
    Chairman Roberts. With different agencies. What I am trying 
to point out is that if you develop that to the degree that you 
have a stable community, and that is a tough--that is a high 
bar, but it also provides a market for us to sell them other 
things, fertilizer, tractors, et cetera, et cetera. It benefits 
them as well.
    Ms. Harden. It creates markets. If we want to sell, we have 
got to have someone able to buy. You have to have a customer. 
The way you create a customer and help build and establish a 
customer is to build stability and create a market, create 
demand. The only way you are going to do that is to have 
stability. Otherwise, we are just going to be giving handouts. 
We are just going to be donating. That is not what we want to 
do. We do that when we need to, when we have to and it makes 
sense. But to have the complete balance and help us create 
markets for our farmers, to help our farmers stay on the farm 
and ranch, which is what we want to do, we need markets outside 
of the U.S..
    Chairman Roberts. Thank you for that.
    Ms. Harden. We need more markets here, and we need markets 
outside of the U.S.
    Chairman Roberts. Thank you so much for that. You have hit 
the nail on the head. We will not stick you for the coffee.
    I thank you for your testimony. We would like to welcome 
the next panel at this particular time.
    Ms. Harden. Thank you, sir.
    Chairman Roberts. We are eager to hear the testimony from 
all of you on this very important issue. We have compiled a 
panel of witnesses, I believe, who have broad experience and 
knowledge on these issues.
    Mr. Wade Ellis was named vice president and general manager 
of Bunge North America's Milling Unit in 2012. He has been with 
Bunge since 2003 where he has served as vice president of sales 
for milling and general manager of Bunge's Rice Mill in 
Woodland, California. Prior to Bunge, Mr. Ellis worked in the 
hybrid seed corn industry where he held various agronomic sales 
and consulting roles for especially hybrids, now a party of 
Monsanto. He received his bachelor's degree at Purdue 
University in agribusiness management--where a quarterback 
played at one time that threw a pass that defeated Kansas State 
in a bowl game, Mr. Drew Brees. I will not hold that against 
you.
    Welcome, Mr. Ellis. I look forward to your testimony. I 
will introduce the rest of the witnesses after you give your 
statement, sir.

 STATEMENT OF WADE ELLIS, VICE PRESIDENT AND GENERAL MANAGER, 
  BUNGE NORTH AMERICA MILLING, ON BEHALF OF THE NORTH AMERICA 
            MILLERS ASSOCIATION, ST. LOUIS, MISSOURI

    Mr. Ellis. Well, I appreciate the opportunity to be here, 
and I was at the Alamo Dome for that game, by the way. I was in 
school at the time. I am Wade Ellis. I am vice president and 
general manager of Bunge Milling, a part of Bunge North America 
in St. Louis. I oversee milling operations for Bunge in the 
states of Kansas, Nebraska, Illinois, California, and Indiana.
    Raised on a corn and soybean farm in central Indiana 
myself, where my mother and father still operate today, one of 
the greatest joys I have in my work is seeing the process 
connected from start to finish where Bunge gets to truly 
operate in the middle of the agriculture supply chain. We 
connect America's growers to food processors and consumers 
alike, and seeing the country's hard work translating to 
feeding the world is something we are all very proud of each 
day.
    For decades, Bunge has been proud to provide ready-to-use 
foods for distribution in the U.S. food aid programs. What 
began as a program to supply large bulk quantities of simple 
products has shifted to a product line of high-quality, 
nutritious foodstuffs to meet the requirements of famine 
emergencies wherever they occur. We can specially prepare foods 
for infants, children, their mothers, the elderly, and others 
with specific needs. Ready-to-use therapeutic foods now 
supplement local staples, and when they are used together, our 
food aid products become more effective in saving lives and 
mitigating the effects of malnutrition.
    Many of our products over the years have been formulated to 
provide vital nutrients quickly and efficiently in forms and 
flavors acceptable to people with widely varying diets. Working 
with other companies and the USDA over the years, we have 
contributed to the progress and enrichment of blended foods by 
volunteering resources and expertise. Further, we have made 
significant investments in both our milling and packaging 
capabilities to best meet the changing needs of the 
distribution and storage requirements of these programs.
    Now, our role as processors of these vital products gives 
us a unique perspective into the value this program brings from 
one end of the value chain to the other. Ultimately, the real 
winners are the people receiving the U.S. food aid in an 
acceptable, usable form, with other benefits accruing up and 
down the food supply chain to the Nation itself.
    Looking back at some of the history on P.L. 480, now 60-
plus years, some of President Eisenhower's remarks stuck out to 
me. He knew that the collapse of political systems as well as 
crop failures leave millions without food or the means to 
acquire it. When help does not come to people caught in these 
circumstances, the world becomes a more dangerous place. 
President Eisenhower saw Food for Peace among the best tools he 
had at his disposal. One look at the USAID food bags with the 
words ``From the American People,'' people understood that 
America was responding to their need. Food for Peace buoyed the 
U.S. reputation for doing good in the world, and it still 
brings the agricultural sector a major source of pride today.
    Bunge representatives have made numerous visits in-country 
to see our products in action, and the sense of pride is 
immeasurable upon return.
    The world has changed tremendously since this Committee 
considered legislation to formalize food aid in 1954. What has 
not changed is the need for food aid. Crises stemming from 
hunger occur all too frequently today, and they reshape the 
world as we know it. Back-to-back crop shortfalls in key 
producing areas were a catalyst to popular uprisings in the 
Middle East not even a decade ago. Today the consequences 
continue to reverberate around us.
    Also unchanged is the agricultural sector's pride and the 
support for this program. We have faith that the Senate and 
House Agriculture Committees will maintain a vision of Food for 
Peace consistent with its original intent. As it evolves to 
meet the needs of a world with 9 billion people, new 
flexibilities will be needed. P.L. 480 also has a role to play 
in achieving a 70-percent increase in world grain and oilseed 
production by 2050. Its farmer-to-farmer connections, its 
support for education by feeding school children in the 
developing world, its ties to global institutions that monitor 
supply-and-demand balances, and its overall contribution to 
food safety and security are important assets for the future.
    It will take many commitments in many forms to feed the 
world. Just as there is an imperative now for food aid, the 
imperative for food aid will always be with us. Specific 
expertise in food aid and an industry positioned to provide it 
will also be necessary. With compassion and prudence, the U.S. 
should continue to claim this as one of our areas of expertise 
contributing to a better world.
    Thank you again for the opportunity to be here, and I look 
forward to answering questions later.
    [The prepared statement of Mr. Ellis can be found on page 
40 in the appendix.]
    Chairman Roberts. Thank you.
    Our next witness is Mr. Leach, a well-known witness 
testifying on world hunger, food programs, what we can do, what 
we should be doing, what we should not be doing.
    Please proceed.

   STATEMENT OF RICHARD LEACH, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, WORLD FOOD PROGRAM USA, WASHINGTON, DC

    Mr. Leach. Thank you. Thank you, Senator Roberts and 
Senator Stabenow, not only for convening this hearing, but for 
your steadfast, unrelenting, and longstanding commitment to 
addressing global hunger.
    If I may, before my planned comments, I would like to 
acknowledge that early this morning or late last night, a good 
friend, a great American statesman, Sandy Berger, passed away. 
Sandy served on our board for almost a decade and did a lot of 
work for us and for the Government as it pertains to the link 
between national security and food security. The people he has 
impacted around the world will ensure that his legacy will 
continue, and I felt it was important to acknowledge his 
planning this morning.
    U.S. support has been and is today vital in helping the 
World Food Program provide life-saving assistance to upwards of 
80 million people in more than 82 countries. It provides hope 
to communities grappling with natural disasters, refugees 
fleeing conflict, and families living in extreme poverty.
    U.S. food has alleviated hunger and has literally 
transformed lives. In fact, over 3 billion people in more than 
150 countries have been helped by U.S. food aid since the Food 
for Peace program was launched in 1954. It has promoted global 
stability, responded to humanitarian needs, whether caused by 
conflict or natural disaster, and contributed to economic 
development.
    As was said earlier, providing food to those suffering from 
hunger is a statement about the American people. Moreover, it 
is a statement about our American values and what we stand for. 
It is something that all of those who have worked to make these 
programs a success take great pride in--whether they are 
farmers, relief organizations, Members of Congress, or 
Government officials across numerous administrations.
    So we should celebrate the success--the success that this 
program and these programs have had for many years, but we must 
also continue to build on the lessons that we have learned. 
Today we have greater capacity to analyze market conditions, 
and to assess the needs of vulnerable populations so that we 
can determine what is the most effective mechanism to help 
those suffering from hunger.
    Through this capacity, we have learned what types of food 
assistance are best to meet specific needs: LRP, Local and 
Regional Procurement, in-kind assistance, or cash and vouchers. 
We can now match the most effective tool to help meet the 
specific food and nutritional needs of vulnerable populations.
    In-kind food aid is needed when food shortages are 
widespread and local markets cannot address the needs. Cash and 
vouchers have proven effective in situations, particularly in 
urban areas, where local markets have adequate food, and 
vulnerable populations, if they have the resources, would buy 
it. Local purchase of food, when surplus production is 
available, has shown to reduce costs, delivery time, and also 
increase the incomes of small-scale farmers. So, bottom line, 
we need to use the most appropriate strategy as the 
circumstances require.
    In addition to increasing the overall effectiveness of our 
food assurance programs, the U.S. Government's global food 
strategy today is more comprehensive than it has ever been; we 
consider this strategy in terms of four interrelated pillars 
that address all the multiple faces of hunger:
    First, the emergency response efforts that save lives in 
crisis.
    Second, the nutrition programs that help the most 
vulnerable. These are especially important for pregnant women 
and young children in their first 1,000 days when malnutrition 
could cause irreversible damage, stunting, and other problems 
that will last throughout their lives.
    Third, the use of safety net programs. This is an area 
where I think we need to have more and more focus. Safety net 
programs, like School Feeding, help people climb out of extreme 
poverty and chronic hunger, and also bounce back from weather 
shocks, and societal shocks. The LRP authority that was 
referenced earlier, and linked to the McGovern-Dole Program, 
both authorized in the farm bill, is a critical tool. I would 
love to talk more about how it can build long-term 
sustainability and local control over these school feeding 
programs, as part of our exit strategy.
    The fourth pillar is the whole range of agricultural 
development efforts to increase productivity and access to 
markets of small-scale farmers, who actually comprise about 
half the population of people who suffer from chronic hunger 
around the world.
    We have made great progress, and the U.S. has been leading 
the world in pursuing this more comprehensive strategy to 
combat global hunger.
    But, as noted, we have to be cognizant of the current 
humanitarian crises that are threatening some of the progress 
that we are making. Right now there are over 60 million people 
who have been displaced because of conflict. We have not had 
that number of people displaced since World War II. We have 
weather shocks that occur more frequently and with greater 
severity. Although we have significant threats, we know how to 
grapple with them. But we are going to have to work with the 
international community to take these efforts to the next 
level.
    In conclusion, I want to thank this Committee for your 
longstanding support. I think all Americans can be proud of the 
work of this Committee and the longstanding bipartisan 
commitment to addressing global hunger. I thank you very much 
for allowing me to be here today.
    [The prepared statement of Mr. Leach can be found on page 
57 in the appendix.]
    Chairman Roberts. Rick, I owe you an apology. I did not 
really address your background and what you have done in the 
past, which I will do right now before recognizing Senator 
Stabenow to recognize our next witness.
    Mr. Leach currently serves as president and CEO of the 
World Food Program, if people did not know that. Over his 
career he has worked on major social issues at a range of 
organizations, including the World Health Organization and the 
U.S. Department of Health and Human Services. Rick also got his 
start on Capitol Hill on the foreign policy staff of the U.S. 
House of Representatives Select Committee on Hunger. In 1997, 
Rick established the World Food Program USA, formerly Friends 
of the World Food Program, and has since traveled across the 
world to witness firsthand the effects of chronic hunger.
    So with that apology, Rick, thank you for your testimony.
    Senator Stabenow?
    Senator Stabenow. Well, thank you very much, Mr. Chairman, 
and welcome to everyone. I want to particularly welcome and 
introduce Arlene Mitchell today. She is the executive director 
of the Global Child Nutrition Foundation, 40 years of 
experience working in international hunger and development 
programs. She also grew up on a family farm in Michigan, is a 
graduate of Michigan State University, the Eastern Division Big 
10 champs, I will say, with the final game, Mr. Chairman, on 
Saturday night. I hope you will be rooting for us on Saturday 
night.
    Prior to leading the Global Child Nutrition Foundation, she 
worked for the Bill and Melinda Gates Foundation as deputy 
director for access and markets in the Agriculture Development 
Program, where she worked to assist small farmers in Sub-
Saharan Africa and South Asia. She also previously worked as 
executive director for the United Nations World Food Program 
and in the Foreign Agricultural Service at the United States 
Department of Agriculture. Before that, she was a volunteer and 
staff member for the U.S. Peace Corps.
    So, Mr. Chairman, she is an important voice in this 
discussion. Thank you.
    Chairman Roberts. We will turn to questions now of the 
panel--oh, I am sorry. You are going to give your testimony, 
Arlene. I apologize. All 38 pages.
    [Laughter.]

STATEMENT OF ARLENE MITCHELL, EXECUTIVE DIRECTOR, GLOBAL CHILD 
           NUTRITION FOUNDATION, SEATTLE, WASHINGTON

    Ms. Mitchell. Thank you. As you noted from my written 
testimony, I had a lot to say. Thank you, Chairman Roberts and 
Senator Stabenow and all the distinguished Committee members 
and fellow panelists. It is a real honor to be here today.
    Hunger, as we have talked about, particularly chronic 
hunger, is terrifying and it is debilitating. Hunger limits 
potential and causes people to behave in extreme ways. Hunger 
also takes a toll on those of us who are far removed through 
the cost of humanitarian assistance and health care as well as 
lost education and productivity and millions of people and 
subsequent generations.
    Agriculture can and must play a role in combating hunger. I 
want to call attention to ten issues for special consideration. 
Some have already been mentioned today.
    First, we need to reduce food loss and waste. We are losing 
about a third of what is produced around the world.
    Second, we need transportation and storage systems and 
solutions that leapfrog the current systems. Many of our 
current systems are expensive, outmoded, unsafe, unusable, and/
or corrupt. We can get around in little vehicles on Mars and 
the Moon, and we have all-terrain vehicles that can negotiate 
rivers, sand dunes, ice, and snow, but we cannot get African 
tomatoes 5 kilometers down the road to market from the farm.
    We also have spent huge amounts of money on building and 
maintaining roads, trucks, trains, ships, and planes, but the 
cost and complications of moving food long distances are still 
impediments to getting food to those who need it quickly and at 
a cost they can afford.
    Food safety problems such as E. coli, salmonella, and 
aflatoxin need more attention.
    It is time to effectively involve women. There has been a 
lot of talk about that today. In addition to comprising half of 
the world's population, we play important roles in farming and 
water use, food handling and preparation, family well-being, 
policymaking, et cetera, but we are not really included in key 
decisions and activities.
    Fifth, we urgently need solutions to address age issues. 
Farmers and agriculture scientists are getting old. At the same 
time, not enough young talent is entering into agriculture 
professions.
    Sixth, market and adoption issues thwart progress, 
especially in Africa. Why would a farmer invest in seeds, 
fertilizer, and technology to produce more if there is no way 
to cover the costs by selling the surplus that they produce?
    Seventh, we need to better control crop and animal diseases 
and pests that threaten the world's food supply.
    Eighth, it is time to insist on linking agriculture and 
nutrition. The goals and programs are not in sync, and they do 
need to be.
    Ninth, protecting biodiversity is critical. We also need to 
explore the use of plants and animals that are not currently 
familiar to us in the United States.
    Tenth, agriculture affects health and health affects 
agriculture, but the two sectors work in silos.
    These items are critical to global food security. They are 
also the reason that I am working in the Global Child Nutrition 
Foundation. We see large institutional meal programs, 
nutritious and, if possible, locally purchased, as an avenue to 
addressing many of these issues. Building on the school 
infrastructure that exists in some form in every country gives 
programs a foundation, and using the power of education ensures 
that these programs will have a positive impact for the 
involved children, farmers, and families both now and for 
generations to come.
    Now I want to mention two other issues that factor into the 
equation: First, traditional methods of development and 
humanitarian aid are being challenged by technical, digital, 
and cultural divides, by global weather patterns, conflict and 
displacement, political trade and economic pressures, the 
demands and actions of large emerging players such as China, 
India, and Brazil. Secondly, economic growth in Africa is 
positive, and the trends are expected to continue to be 
positive. These factors are causing shifts in power dynamics 
and call for new paradigms.
    Finally, the U.S. Government could tackle some entrenched 
behaviors and systems that, if alleviated, might speed 
progress. Five possible actions are:
    First, providing incentives for interagency cooperation and 
other good behaviors in Government agencies both here and 
abroad.
    Second, encouraging nongovernmental players to cooperate as 
equal partners and work from their comparative strengths rather 
than each competing to be in the lead.
    Third, instituting rewards for programs and organizations 
that work themselves out of jobs rather than creating and 
sustaining dependency.
    Fourth, creating safe ways to honestly discuss failures and 
challenges.
    Fifth, continuing the tradition of bipartisan support and 
jointly sponsored initiatives for combating hunger.
    That ends my remarks, and thank you for the opportunity to 
speak today.
    [The prepared statement of Ms. Mitchell can be found on 
page 64 in the appendix.]
    Chairman Roberts. Thank you very much, Ms. Mitchell.
    I think I am going to go to Mr. Ellis first. You mentioned 
there have been critics of the involvement of U.S. agriculture 
in foreign assistance programs. This is sort of motivational 
question. What motivates you and your company to remain 
committed to these programs? This is against the backdrop of 
declining prices worldwide for commodities, all sorts of 
weather changes. You are facing some difficult decisions, but 
you still have that commitment to these programs. What 
motivates you to do that?
    Mr. Ellis. So I think it is important to say there is an 
extremely feel-good portion of this to us as an organization. 
Because we have been in it as long as we have, too, there are 
several layers through our management that have a tremendous 
amount of support for what we have done. A lot of that is 
because they have seen what it does for folks in-country when 
the service is being provided. I think that is a very large 
part of it.
    There are times in the decision making process when you 
think about the volumes decreasing and some different things 
changing over the years, I think the amount of research that 
has been spent and the nutrient level and the consistency of 
the products now, there is a firm belief that we are delivering 
something that is making a big difference. I think that is what 
it is about.
    Chairman Roberts. Well, you have touched on this. How has 
Bunge approached the task of creating high-quality products 
that help combat malnutrition and stunting, particularly for 
women and children? Both Rick and Arlene have spoken to that.
    Mr. Ellis. So in my 13 years with Bunge now, I have had 
some exposure to this program throughout, and I think a lot of 
the products that would come through the program in the first 5 
to 7 years, I would estimate, would have been more basic 
cornmeals that are enriched. But where we have moved today is 
to target specific age groups, mothers, lactating mothers, etc. 
The specificity to the actual product is a tremendous advance 
for all of us in the industry.
    One of the things that I find amazing is the commitment we 
have made to this program. In our milling business, outside of 
rice, we do not pack anything under what would be a 25 kg bag. 
Recently with the super cereal, we have installed equipment to 
be able to pack the 2 to 5 kg type bag for the super cereal 
product because we feel it will deliver a better product in 
this program.
    So the research that goes into that, at the end of the day, 
it does take staff's time from our business, and we are 
committed to doing that, and we work with our association 
partners. NAMA is a strong leader in that category as well, and 
I think it is a testament to where the program has come to the 
amount of work and the amount of nutrients that are in these 
products versus even 10 years ago.
    Chairman Roberts. Rick, you mentioned this in your 
testimony. I am interested in what steps you would advise the 
Committee that can be taken that can actually happen to help 
countries try to develop programs that will help mitigate the 
conflicts and other economic shocks that we see today that 
threaten the world's food supply.
    Mr. Leach. Well, there are a number of things that can be 
done--many of which are being done now.
    Chairman Roberts. Your top three. Pardon the interruption. 
Your top three, perhaps.
    Mr. Leach. I think the capacity to have flexibility in the 
response is critical. That is what the Committee provided an 
opening for in the last farm bill.
    Chairman Roberts. Right.
    Mr. Leach. I will give you an example. The authority for 
flexibility under Title II to use local purchase through the 
expanded 202(e) authority, allowed the World Food Program to 
respond to a drought that occurred in Malawi. USAID had 
prepositioned food there, but WFP had to move more quickly than 
was expected to address an expanded need. The authority you 
provided allowed for WFP to buy local food that was used to 
address the short-term gap. That authority provided the 
opportunity to address the gap immediately.
    Other efforts are addressing those issues that would 
promote resilience--so that when weather or other shocks occur, 
we are not dealing with an emergency response because we 
already have operations on the ground. For example, building 
containment for rain water would help protect against the 
effects of a drought and provide an opportunity to withstand 
those problems.
    I would like to focus on some of the things the Committee 
could do to further enhance the capacity of local safety net 
systems. This is an area where we need to have a much greater 
focus. For example, if the USDA had the authority to use its 
safety net programs to provide technical assistance overseas, 
it could have a huge impact. Safety net systems should become a 
part of a countries' good governance and rule of law. There 
should be a third point, and it should be effective safety net 
systems. Safety net systems should include, not just school 
feeding programs that we are supporting, but a more 
comprehensive system throughout a country. That is where, once 
again, the LRP Program, provides the capacity to create 
linkages, between building technical capacity, and local 
relationships so that we can evolve beyond external projects to 
those run locally.
    So I just would like to emphasize that we need to raise the 
profile of safety net systems at large--with school feeding 
being one of the most important. This is how countries can 
address shocks when they occur. For example, a drought occurs 
and a farmer has a dairy cow. If crops are destroyed because of 
the drought, you do not want that farmer to have to kill the 
dairy cow to feed his family. Therefore, we need safety net 
systems to help people get through shocks such as this.
    Enabling countries to have their own safety net systems in 
place, reduces the need for the international community to 
intercede. So I think there needs to be a larger focus on 
helping countries build their own systems. More than 80 percent 
of countries around the world do not have effective safety net 
systems. This is an area that we might not realize is such a 
critical point, I think we need to spend more time focusing on.
    Chairman Roberts. I appreciate that.
    Senator Stabenow, I am over time, but I do want to say to 
our next witness, Ms. Mitchell, you have done an exceptional 
job. I actually turned off Megyn Kelly last night and----
    Senator Stabenow. That is good.
    [Laughter.]
    Chairman Roberts. That is not a regular thing. Now, had it 
been ``Blue Bloods,'' it might have been something else. But, 
at any rate, I read your entire testimony. I took the liberty 
of numbering your pages. You have 38. I want to thank you. It 
is a syllabus, sort of an Agriculture II, or 101/102. It is 
required reading by all members of the Committee who are not 
here, but they should be informed that we will have a test next 
week on this. But you said something here--I thought I had it 
marked. I will find it, hopefully. It is worth waiting for.
    Well, one thing I did is compare you to Samuel P. 
Huntington in ``The Clash of Civilizations and the Remaking of 
World Order,'' who is one of my favorite authors. He said, 
``With 200 million people aged between 15 and 24 (the youth 
bracket), Africa has the youngest population in the world.
    The current trend indicates that this figure will double'' 
in the next couple of decades, which indicates something that I 
asked in 1980 in a campaign ad, and I said: ``The most 
important question in agriculture today in the United States 
is, `Where is the next generation of farmers going to come 
from?' '' That question still exists, and you have also 
referred to a new term, ``older agriculturalists.'' Could you 
put ``wise'' in front of that, maybe? Just a little thing. But 
you had a marvelous summary here, if I could just find it. It 
was a great quote. I might yield to Senator Stabenow, and if I 
find it, I can come back with it. Let us do that.
    Senator Stabenow. All right. We will go ahead. Well, I also 
appreciate very much all of your testimony of all of our three 
witnesses, and your thoughtfulness. But, Ms. Mitchell, we do 
appreciate all of the expansive information that was in the 38 
pages that we received, so thank you very, very much.
    I wonder if you might just talk a little bit--when we talk 
about the USDA, and you heard Deputy Secretary Harden talk 
about the breadth of their contributions in terms of hunger and 
nutrition and global food security and so on, what would you 
say the USDA is doing well at this point? Where should we be 
looking to help strengthen their role? Mr. Leach talked about 
technical assistance and global safety net systems, which I 
think is really an excellent point that we should be focusing 
on. But when we look at the enormous challenges we are facing, 
what should we do on our end to strengthen their role? What do 
you think they are doing really well?
    Ms. Mitchell. Well, in my years at USDA, I had the 
privilege of working in a role that cut across all the 
technical agencies of the Department. It is an extraordinary 
technical resource that I feel the world has not seen enough 
of. So I think the world needs to see more of USDA in its 
breadth and its technical skills, and I think USDA needs to see 
more of the world.
    I also think that USDA can and should be involved in 
bringing the rest of the world to America, particularly rural 
America, where it is not well understood what is happen 
overseas and why the U.S. Government is investing the way they 
are.
    So in terms of technical capacity, we have discussed many 
issues today that the USDA is the world's leading expert and 
has that deep technical capacity to address. But they are 
somewhat blocked. Quite frankly, there are some legal issues 
where, if the laws were tweaked just a little bit, USDA could 
have more flexibility.
    They are also, in my viewpoint, constrained by tradition 
and policy. They are not used to working overseas, and they 
often have leaders who discourage international work.
    So an action item in this area would be to tweak the law 
and encourage the leadership to allow USDA to do more 
international work. An example is Deputy Secretary Harden 
herself had to get special permission to do as much 
international work and travel as she is currently doing.
    Secondly, USDA staff are very skilled in technical areas, 
but they are not necessarily skilled in doing international 
work, whether you talk about speaking foreign languages or 
understanding cultural and protocol issues. Especially in 
relating to low-income, low-resource countries right now and 
low-resource agriculture, our technology is such that there is 
a very big divide in the way we approach issues and the way a 
smallholder farmer in Africa approaches an issue.
    So an action item in that area might be to encourage USDA 
to work closely with the Peace Corps, both to provide Peace 
Corps with technical expertise, but also on the other side of 
the equation to actually recruit from the Peace Corps or use 
those types of cultural and language skill training programs 
for some USDA staff to engage more effectively internationally.
    Lastly, I think the American public does not understand the 
work, as I was mentioning earlier, and I think that our land 
grant colleges, 1890s institutions, which, unfortunately, have 
not been mentioned today and I think are extremely important to 
international agriculture, and extension staff in particular 
could play a much stronger role than they currently do in 
helping the U.S. public to understand how important these 
issues are around the world.
    Senator Stabenow. Thank you. Could you also expand a little 
bit about the connection of agriculture and nutrition and the 
importance of having, more connections more conversations, more 
work being done?
    Ms. Mitchell. Right. There has been a lot of attention over 
the last 3 to 5 years about the nutrition-agriculture linkages, 
but, unfortunately, there is still not enough being done. I 
think there are some serious issues.
    The first 1,000 days are ultra-critical, and we all agree 
to that. There is no argument about that. But it does raise 
questions for agriculture. A woman is pregnant for 9 months. A 
child should be breastfeeding immediately after birth and up to 
2 years. So where is the agriculture play in the first 1,000 
days? It is very hard to think of institutionally how you would 
reach those people and in the time range and with the 
activities that they are involved with, it is hard.
    So we believe in a life-cycle approach. You worry about 
nutrition throughout an individual's whole life, with special 
emphasis on the first 1,000 days, 1,001 days and through the 
formative years, which is basically school age. We know that 
brain and bone growth do continue up until roughly age 21. Pre-
parenthood adolescent girls and their education are ultra-
important and can be reached through schools and school feeding 
with nutrition education. At times of particular vulnerability, 
if someone is ill, they need special nutritional interventions. 
If they are elderly, they may need special nutrition.
    In those areas, 1,001 days and beyond is where there is the 
strongest agricultural play, and I think we really need to 
focus on that, not to say it is either/or. The first 1,000 days 
we all agree is important, but we also need to worry about the 
life cycle.
    Senator Stabenow. Thank you. Thank you very much.
    Chairman Roberts. Senator Tillis, I am going to recognize 
you in just a moment. I think I have discovered the quote that 
I am looking for, Ms. Mitchell. You said, ``There are moral 
arguments for dealing with hunger at home and abroad, but moral 
imperative aside, there is self-interest to consider. American 
interests are at stake, too. The productivity and 
competitiveness of American agriculture is closely linked to 
the issues and changing landscape of agriculture 
internationally; our own agriculture and the U.S. economy can 
benefit from progress against global hunger.''
    I think that pretty well sums it up with regards to what we 
are learning and what our goals are and our challenges are.
    You even go on: ``Key Issues; why this is not a question of 
business as usual,'' and you have listed ten reasons why. Then 
you have, ``Possible actions to address the key issues 
presented The United States Government...could do.'' I think 
that totals up to 11 different suggestions. We will give these 
to the Appropriations Committee and see if we can fund all 
this.
    Then you finally sum up with, ``Key Issues; why this is not 
a question of business as usual.'' Now, the reason I am taking 
up Senator Tillis' time here, because the questions have been 
asked of Senator Stabenow, is to compliment you on providing 
the Committee a blueprint, if you will--somebody said it was a 
syllabus, but it is a blueprint, and I thank you for that. You 
have 38 pages. I think you could probably do 50 and make it in 
20 point and then people like me could read it. I think it is 
about 12 point now.
    But thank you for this. It has been a very extensive 
statement. I do not think I have ever read a statement by a 
witness so comprehensive with regards to this challenge.
    Senator Tillis?
    Senator Tillis. Thank you, Mr. Chair. I apologize for being 
late. I had three concurrent Committee meetings, one of which I 
was asked to chair the tail end of.
    Ms. Mitchell, I would like to start with you. I think you 
made a comment just before I got here about the goal of some of 
the organizations involved in this program should set out with 
a goal of working themselves out of existence. It kind of leads 
to, the ``teach a man to fish'' sort of paradigm, too.
    What more do we need to do to not make that aspirational 
but an expectation? How would you go about trying to provide 
the guidance to say, if you are not at that point, we need to 
get someone else in that can get to that point? What advice 
would you have for us, or any of the others?
    Ms. Mitchell. Well, I think it is primarily to give teeth 
so that it does not just become a perpetual you get away with 
it by not working your way out of a job, and to provide some of 
the tools that we have been talking about in terms of 
strengthening safety net programs, in terms of local and 
regional purchase where you can actually provide a market for a 
farmer's goods so that they do become sufficient, self-
sufficient, and they can sell to commercial markets over time, 
et cetera.
    So it is a combination of treating this as not business as 
usual, actually putting some teeth in some of the decision 
making around organizations who are involved, and they are all 
great organizations. I do not want to denigrate the 
organizations involved, but we have all become dependent 
ourselves on resources recurring, coming year after year, 
rather than working our way out of a job and saying, ``Well 
done. We are moving on to something else.''
    Senator Tillis. To add to that, what sort of metrics 
exist--in order to fairly judge whether or not someone is on 
the right trajectory to end the need for whatever need they 
happen to be fulfilling because they have somehow fixed the 
underlying problem, what sort of focus on metrics and other 
things can we do so that we make that a fair and more objective 
discussion that we have to have at some point in time?
    Ms. Mitchell. It is a tough equation because agriculture 
takes a while. I always say it takes 12 to 15 years before you 
can really see change in agriculture. But if you look at 
adoption rates, for example, there should be a way to actually 
measure whether somebody is using your tool, your seed, your 
fertilizer, whatever, and they continue to use it once you have 
physically gone. That kind of follow-up action just does not 
exist in development operations.
    It is also an issue of finding who is going to take over in 
the country and providing some capacity development, and that 
is an area which is very hard to convince development workers 
to do, because that means they are not needed anymore. These 
jobs are really interesting, very rewarding jobs. So who wants 
to give that up and turn it over to a local, for example? But 
that is what we need to do, and we need to incentivize that in 
a way that makes it valuable to the players to do that.
    Senator Tillis. It seems to me in our lifetime we are 
probably going to have needs maybe somewhere else, so it is not 
like the need does not exist. It may just move to a different 
theater.
    Mr. Leach and Mr. Ellis?
    Mr. Leach. Sure. It is an important question, and I think 
it needs to be a consideration, in regard to everything we do. 
What is the exit strategy? How do we work ourselves out of a 
job?
    That is not to minimize the importance of helping those who 
are impacted by crisis. There are still people unfortunately, a 
growing number of people, impacted by civil conflict or natural 
disasters that we have to help because they are no longer in 
their home or their village. There is still that cohort that 
we, the international community, need to help.
    Senator Tillis. Absolutely.
    Mr. Leach. But to your question, there are number of 
efforts underway. One I will mention, and then a challenge to 
all of us. The World Food Program operates a program called 
``Purchase for Progress'', which has garnered a lot of support 
from the U.S. Government. Actually, most of the support came 
from two people who understand business--Bill Gates, and Howard 
Buffett--initially funded the operation. It was a pilot for 5 
years, a proven success.
    The goal was to help small-scale farmers, who comprise 50 
percent of the people who suffer from hunger, become more 
productive and then access the market so that we no longer have 
to provide assistance.
    This was a very focused effort to help increase 
productivity, by working with a wide range of partners, talking 
about everything from fertilizer and irrigation to warehousing, 
and access to credit. The World Food Program, one of the 
largest purchases of commodities in the world would be the 
initial market. But the goal is that they would graduate to 
participate in open markets.
    This program is working, and we can measure it in terms of 
the number of people and farmers helped, and also the number of 
farmers who are now selling to companies such as Walmart and 
not us. That is a measure of success. I think earlier there 
were comments about how no one wants aid--they want to be able 
to fend for themselves, and they want to be successful. That is 
true for everyone around the world.
    So that is an example of an overall effort that includes 
the U.S. Government's Feed the Future program. How do you 
create the capacity for them to become more productive, access 
markets, and not rely on external assistance?
    In many respects, we buy food from hungry people to feed 
hungry people, and in the process you lift the first group out 
of hunger and poverty because they are now active participants 
in the marketplace.
    One of the points Arlene Mitchell mentioned, is the need to 
build local capacity, and that gets back to the point I was 
making earlier about safety net systems. We need to place a 
higher priority on helping countries build their own systems so 
that they have the capacity to run their own school feeding, 
and to help people through shocks. The challenge to all of us 
is to figure out how to mobilize the international community to 
providing whatever assistance is needed in the short term so 
that we have an exit strategy.
    Mr. Ellis. Mr. Chair, I know I am over, but with your 
indulgence, if we could have Mr. Ellis maybe close it out?
    Chairman Roberts. Sure.
    Senator Tillis. Mr. Ellis?
    Mr. Ellis. Our job in the value chain changes every year. 
We mentioned bulk quantities of an enriched cornmeal that would 
go probably two or three times what we ship out of our system 
today.
    Our job is to stay relevant in the conversation, we feel, 
so you have target audiences. As we get a better understanding 
of what nutritional shortfalls there are, we continue to adapt 
the products, continue to get to where there is a more targeted 
audience that is going to take that product. That is, in a way 
working ourselves out of some of what we did in the past, and 
either we stay relevant by providing some better nutritional 
value, or there will be other solutions that can take place of 
that.
    Senator Tillis. Thank you.
    Thank you, Mr. Chair.
    Chairman Roberts. We have just heard from the Deputy 
Secretary of Agriculture as well as those working on the ground 
about the role that agriculture plays in combating global 
hunger and related topics. Agriculture is clearly at the 
epicenter of our ability to address food shortfalls around the 
world. We must continue to be forward thinking, find new and 
innovative ways to get ahead of the coming population and 
production challenges.
    We in the agriculture industry have had a long history of 
exactly that kind of innovation. We can do this. It is through 
our dedication to research, our expansive knowledge in the 
development of value chains, and the advancement of new 
technologies that place the United States agriculture community 
on the front lines of the fight to end hunger around the world.
    This will conclude our hearing today. Thank you to each of 
our witnesses for sharing your views. The testimonies provided 
today are extremely valuable for the Committee to hear 
firsthand. To my fellow members, I ask that any additional 
questions you may have for the record be submitted to the 
Committee clerk 5 business days from today or by 5 p.m. next 
Wednesday, December 9th.
    The Committee is adjourned.
    [Whereupon, at 12:14 p.m., the Committee was adjourned.]

      
=======================================================================


                            A P P E N D I X

                            DECEMBER 2, 2015



      
=======================================================================

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                            DECEMBER 2, 2015



      
=======================================================================
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


      
=======================================================================


                         QUESTIONS AND ANSWERS

                            DECEMBER 2, 2015



      
=======================================================================


[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




</pre></body></html>
